<html>
<title> - UNDERSTANDING THE POWER OF SOCIAL MEDIA AS A COMMUNICATIONS TOOL IN THE AFTERMATH OF DISASTERS</title>
<body><pre>[Senate Hearing 112-390]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-390

                   UNDERSTANDING THE POWER OF SOCIAL
      MEDIA AS A COMMUNICATION TOOL IN THE AFTERMATH OF DISASTERS

=======================================================================

                                HEARING

                               before the

 AD HOC SUBCOMMITTEE ON DISASTER RECOVERY AND INTERGOVERNMENTAL AFFAIRS

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 5, 2011

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






                  U.S. GOVERNMENT PRINTING OFFICE

67-635 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada
JON TESTER, Montana                  ROB PORTMAN, Ohio
MARK BEGICH, Alaska                  RAND PAUL, Kentucky

                  Michael L. Alexander, Staff Director
      Nicholas A. Rossi, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk
             Joyce Ward Publications Clerk and GPO Detailee


 AD HOC SUBCOMMITTEE ON DISASTER RECOVERY AND INTERGOVERNMENTAL AFFAIRS

                   MARK L. PRYOR, Arkansas, Chairman
DANIEL K. AKAKA, Hawaii              RAND PAUL, Kentucky
MARY L. LANDRIEU, Louisiana          SCOTT P. BROWN, Massachusetts
JON TESTER, Montana                  RON JOHNSON, Wisconsin
                     Donny Williams, Staff Director
                     Amanda Fox, Professional Staff
              Justin Stevens, Minority Professional Staff
                       Kelsey Stroud, Chief Clerk


















                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Pryor................................................     1
    Senator Brown................................................     2

                               WITNESSES

                         THURSDAY, MAY 5, 2011

Hon. W. Craig Fugate, Administrator, Federal Emergency Management 
  Agency, U.S. Department of Homeland Security...................     3
Renee Preslar, Public Information Officer, Arkansas Department of 
  Emergency Management...........................................    12
Suzy DeFrancis, Chief Public Affairs Officer, American Red Cross.    13
Shona L. Brown, Senior Vice President, Google.org................    15
Heather Blanchard, Co-Founder, CrisisCommons.....................    17

                     Alphabetical List of Witnesses

Blanchard, Heather:
    Testimony....................................................    17
    Prepared statement with attachment...........................    58
Brown, Shona L.:
    Testimony....................................................    15
    Prepared statement...........................................    53
DeFrancis, Suzy:
    Testimony....................................................    13
    Prepared statement...........................................    47
Fugate, W. Craig.:
    Testimony....................................................     3
    Prepared statement...........................................    35
Preslar, Renee:
    Testimony....................................................    12
    Prepared statement...........................................    42

                                APPENDIX

Chart referenced by Senator Pryor................................    92
Chart referenced by Senator Pryor................................    93
Chart referenced by Senator Pryor................................    94
Questions and responses for the Record from:
    Mr. Fugate...................................................    95
    Ms. Preslar..................................................    98
    Ms. DeFrancis................................................    99
    Ms. Brown....................................................   101
    Ms. Blanchard................................................   109

 
                      UNDERSTANDING THE POWER OF
                    SOCIAL MEDIA AS A COMMUNICATIONS
                   TOOL IN THE AFTERMATH OF DISASTERS

                              ----------                              


                         THURSDAY, MAY 5, 2011

                                   U.S. Senate,    
             Ad Hoc Subcommittee on Disaster Recovery      
                         and Intergovernmental Affairs,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:05 a.m., in 
Room SD-342, Dirksen Senate Office Building, Hon. Mark L. 
Pryor, Chairman of the Subcommittee, presiding.
    Present: Senators Pryor and Brown.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. I want to welcome everyone to the 
Subcommittee. I want to thank you all for being here, and all 
of our witnesses for being here, and all the interested 
parties. I also want to thank Senator Brown for being here 
today, and I look forward to his service in this slot. It may 
be temporary, but we certainly appreciate you and all that you 
are doing. It has been a pleasure working with you and your 
staff on this hearing.
    Let me start by just saying that we have two panels today, 
very qualified witnesses. I certainly want to thank Director 
Fugate for being here. As busy as he is around the country 
right now, his time is very precious, and he has been generous 
with his time and always helpful to this Committee and 
Subcommittee and helpful to the Senate. So thank you for being 
here, and all the other witnesses as well, all the ones who are 
involved in various disasters around the country. We really 
appreciate all that you all have done and appreciate you being 
here today.
    Last week, a series of severe storms swept across the 
Southern United States causing immense damage and a historic 
loss of life. The storm system spurred powerful thunderstorms, 
tornadoes, and flooding, and it was the second deadliest day of 
tornado activity in U.S. history, killing 341 people in seven 
States, including an unimaginable 249 in Alabama. At least 
those are the latest figures I have. Fourteen people lost their 
lives as a result of the storm in the State of Arkansas, and I 
want to offer my most sincere condolences to the families of 
those impacted or killed during those storms. I hope that your 
families are comforted through this very difficult time.
    Today the Subcommittee has been joined by very insightful 
guests to talk about the increasingly important role that 
social media networks play during disaster response and 
recovery efforts. From search and rescue to family 
reunification, to safety updates, to communicating vital 
shelter information, to other critical or life-saving 
information, and to all around situational awareness, social 
media is becoming a tool that people are coming to rely on and 
to use heavily during emergencies.
    In July 2010, the American Red Cross conducted a survey--
and they are here today, and they will probably talk about this 
in more detail, but they conducted a survey of over 1,000 
people about their use of social media sites in emergency 
situations. The results of the survey were striking: 82 percent 
of the participants used some form of social media at least 
once a day, and nearly half of those use it every day or nearly 
every day. The survey found that if they needed help and could 
not reach 911, one in five would try to contact responders 
through a digital means such as e-mail, Web sites, or social 
media.
    If Web users knew of someone else who needed help, 44 
percent would ask other people in their social network to 
contact authorities. Three out of four respondents would expect 
help to arrive in an hour if a call for help was delivered over 
the Internet; 35 percent would post a request for help directly 
on a response agency's Facebook page, and 28 percent would send 
a direct Twitter message to responders.
    More than half of the respondents said they would use 
social media to let loved ones know that they were safe. Their 
survey also said that respondents with children in households 
are more likely to use social media, 81 percent, versus 67 
percent with those who do not have a child in the house.
    As we work continuously to improve our efforts to respond 
to and to recover from disasters, it is important that we find 
new and creative ways to communicate information to those 
facing the often chaotic circumstances that surround 
emergencies and disasters. I want to thank all of our witnesses 
for appearing today and contributing to an important 
conversation that I am certain will lead to more effective 
tools that will save lives and make delivery of assistance more 
efficient in the future. Senator Brown.

               OPENING STATEMENT OF SENATOR BROWN

    Senator Brown. Thank you, Mr. Chairman. I appreciate the 
opportunity to serve with you on this Subcommittee today, and 
as you referenced, my thoughts and prayers go out to those in 
Alabama and the Southeast who are dealing with the loss of 
their loved ones and homes this past week.
    Clearly, there is no better time to discuss what we are 
discussing today. I know our witnesses will provide useful 
insight into the tools and technology that may assist in better 
response to the recoveries and, unfortunately, future disasters 
that may be forthcoming.
    I actually had an opportunity to go to Google and other 
types of social media companies to understand what they do and 
how they do it, and we have met here on Capitol Hill with the 
Facebook folks and others. And having kids, I understand how 
they have adjusted and adapted and really learned a lot quicker 
than me or other members of my family in using social media and 
related technology. And I have used it quite a bit myself in 
the last couple of years. So I think it is important to 
understand how it is being used and what the opportunities for 
future use are and how we can actually use this when we have 
natural disasters and other types of situations that we need to 
get out reliable, important, sometimes life-saving information. 
I think it is another tool in the toolbox, so to speak, and I 
am looking forward to the testimony of everybody, and I 
appreciate everybody appearing today.
    Thank you.
    Senator Pryor. Thank you.
    Our first witness is the Honorable W. Craig Fugate, 
Administrator of the Federal Emergency Management Agency 
(FEMA). He was appointed on May 13, 2009, to serve as 
Administrator based on his highly distinguished career in 
emergency management. He will discuss FEMA's short-term and 
long-term goals for enhanced use of social media tools, and I 
know that Director Fugate has just come off the road. He has 
been down in many places, and he may tell us about some of that 
as well.
    We do have a timing system today, and we will do 5 minutes 
on your opening, and all of your written testimony will be put 
in the record. Mr. Fugate.

 TESTIMONY OF HON. W. CRAIG FUGATE,\1\ ADMINISTRATOR, FEDERAL 
   EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Fugate. Thank you, Mr. Chairman and Ranking Member 
Brown. I think Senator Brown said it best. When we talk about 
social media, we need to understand it is another tool in our 
toolbox. But it is by no means the only way in which we need to 
be able to communicate with the public, both in warning and 
learning situations, but as well as communicating with them.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Fugate appears in the appendix on 
page 35.
---------------------------------------------------------------------------
    But I think social media offers a new challenge to us. 
Previously, we have had the ability to communicate at the 
public, whether it is radio, TV, Web pages, even billboards 
that are going up across much of the Southeast where these 
tornadoes struck, inserts into bills and other things. But our 
ability to communicate with the public and have two-way 
conversations has always been limited.
    As we have seen in numerous disasters in recent years, we 
oftentimes have taken the approach in government of creating 
systems that people have to adapt to how we communicate. We do 
not always adapt to how they are communicating. And as we have 
seen, people began using these tools differently, many of 
which--or, in fact, almost everything that we use that we call 
social media was never designed with disasters in mind. But 
they became increasingly tools of how people were communicating 
day to day and sharing information with families and loved ones 
that began providing a role in a disaster in ways that for us 
in government we did not innovate this. We did not create it; 
we did not direct it. But we began observing it.
    I think for us at the Federal Emergency Management Agency 
as well as my peers at the State and local levels, as well as 
the volunteer agencies and other groups that are active in 
disaster response, we began to see a whole new group of 
volunteers emerge with skill sets of being able to apply this 
technology in real-time situations without necessarily a 
direction from a central location, but more of a term that is 
oftentimes used of crowdsourcing, many people working on 
similar problems, sharing information, oftentimes getting to 
better solutions.
    Mr. Chairman, it has caused me to realize that in some ways 
social media, and particularly volunteers and groups in the 
industry that are involved in this, I like to put it this way: 
We need to innovate faster than the speed of government. And 
they are doing it. And so instead of trying to make systems fit 
us, make the public fit how we communicate. We at FEMA are 
trying to meet that need and figuring out how to apply this.
    At this point if somebody says Craig, what is the 
performance matrix? What is the measurement of success? How are 
you doing this?, I would say we are still experimenting. We are 
still really just trying to understand how these tools could be 
applied.
    Mr. Chairman, most of the times when we come into these 
meetings, the first thing you do is turn off your cell phones, 
hide them and get them out of sight, but I am going to bring 
mine out because here is what I want to communicate in the 
short time I have.
    In most disasters, when you are displaced from your home, 
you no longer have access to your computer. You may not have 
WiFi access. But in many disasters, including being on the 
ground in Haiti where we had folks there within a day of the 
earthquake--I was down there a week later--the one thing that 
was working were mobile devices. And it is this that I think we 
in the Federal Government need to understand, that we are 
moving more and more away from a Web-based capacity to a mobile 
environment.
    So one of the things we did at FEMA was to start moving our 
information into mobile formats. We have a mobile Web page, 
m.fema.gov, because when you are a disaster survivor, you do 
not need pretty pictures, you do not need our org chart, and 
you certainly do not need all of our programs. You need 
information that will be low bandwidth, that you can go to a 
phone and get things you need.
    We designed our registration so that you could access it by 
your smartphone. But we are also learning that the public has 
tremendous information in disaster areas that oftentimes we 
have taken the approach that it was not official or not usable 
because it did not come from the traditional forms of 
communication.
    Mr. Chairman, I would suggest that we should look at these 
as data points, as sensors, that individually may not provide 
us the best information, but collectively oftentimes are the 
earliest and best reports of the severity of an impact and are 
telling us stories faster than any assessment team or any 
ability to get into an area. We have seen this in Haiti. We saw 
this in Japan, Christchurch, and even in the tornadoes across 
the South--pictures, stories, updates giving us information.
    I think we need to take the approach in the Federal 
Government that the public is a resource and not a liability 
and learn how to listen. But we also need to recognize that we 
are in a mobile environment, and the Federal Government needs 
to focus more upon developing the data to support our citizens 
in a way that they can use in a disaster rather than making 
them fit our traditional models.
    Thank you, Mr. Chairman.
    Senator Pryor. I think those are points very well made and 
well taken.
    Because Arkansas has had so many tornadoes, storm events, 
and floods in the last couple of weeks--and, again, you guys 
have been great about being down there and being on the spot, 
being onsite and helping people--I have been giving out that 
Web site that you are talking about, the disasterassistance.gov 
Web site, and your toll-free number. And pretty much everything 
I have done this week when I talk to Arkansas media, I have 
been giving that out and encouraging them to do that, because I 
think that it is just--people just communicate that way today, 
and you guys can provide such great tools for people to access 
immediately, and it just is really a game changer. So I 
appreciate you all being on top of that.
    At FEMA, do you all have people in office that are doing 
your social media focus here? Or is this just part of your 
overall effort, or do you have to have folks that actually 
focus on this?
    Mr. Fugate. We do have dedicated staff that are working on 
what we call digital engagement. Initially, when I got to FEMA, 
the Web page, using things like YouTube to post update videos, 
and beginning to do partnerships with Facebook where we would 
do joint Facebook pages per disaster with the State to share 
information to the public.
    When I got there, one of the things that I asked early on 
was to begin tweeting, which I had done in the State of 
Florida, so I now tweet ``@CraigatFEMA.'' I actually do my own 
tweets. So many people keep asking me, Who does your tweets? I 
am, like, I do not have staff to tweet, I tweet. And I do not 
tweet about me; I tweet about things that I think are 
interesting.
    A lot of the people that I communicate with are my peers 
and practitioners. It is actually interesting. Not only is this 
useful in disasters, but it is helping build a community in the 
emergency management that traditionally had to go to course or 
conferences to see and hear across the Nation ideas. There are 
things that, when you get into the nomenclature of all of these 
terms, concept of what a hashtag is in Twitter, what it is, it 
is something that you build into a message that you can link on 
that can take---everybody who uses that tag can link everybody 
else's messages together, so very early emergence in the 
emergency management community that are asking these very 
questions about social media applications is a pound sign, 
social media emergency management (SMEM). That is not led by 
FEMA, but we have staff that participate.
    But this is the conversation taking place with local 
emergency managers, States, volunteers, researchers, the 
private sector, and we have never had those kind of--we never 
saw that interaction outside of conference settings or courses, 
which was limited.
    So we have a centrally directed effort, but it also is 
underlying some key principles, is give information all the way 
from high bandwidth to low bandwidth to in-person. We cannot 
forget there are people who do not use social media. But 
communicate and provide tools the way people are communicating 
and using those tools, not limit them to what is just easy for 
us to administer.
    Senator Pryor. All right. You may not have this available, 
but do you have examples of how social media has actually saved 
lives?
    Mr. Fugate. There are examples. I think you are going to 
have some people in the next hearing that will talk about this. 
But some of the examples in Haiti where the wireless 
infrastructure came back on rather quickly, as people were 
trapped in debris and rubble and you did not have a centralized 
government system to receive those calls because of extreme 
damages to both the government of Haiti and to the United 
Nations, people were able to get out text messages that were 
being received by people outside the area. They were able to 
figure out where those people were, approximately, based upon 
the towers and went back and worked with the cell providers. 
And I think you are going to hear stories about how a lot of 
volunteers and people with a lot of technology experience were 
able to start mapping and providing data in a way that it 
allowed the United Nations (U.N.) and other forces from the 
United States Agency for International Development (USAID) to 
get Urban Search and Rescue (US&R) Teams and other resources 
where needed. And that was just one example in a country that 
many of us were kind of taken aback on the devastation, but 
also the resiliency of the Haitians themselves and how much 
mobile technology had actually been integrated into their 
country prior to the earthquake.
    Senator Pryor. And I think back to Hurricane Katrina, and I 
think about all those folks in the Superdome and other places, 
and I guess--was the wireless network up and running at that 
point? You may not know this, but was it up and running in 
those early days?
    Mr. Fugate. Mr. Chairman, I really do not know, but it is 
something that--one of the things we have learned in my 
experience in 2004 and 2005--and I do not know if we have any 
of the wireless operators that could provide this information. 
But it has been my observation that the industry learned from 
those events and how it worked very hard to get in additional 
resources to both bring back up wireless but also increase 
capacity. We saw this in the tornadoes where they brought in 
additional equipment and worked to get cell coverage back up, 
get wireless back up. And because of that, we have seen--and, 
again, I kind of look at Haiti as a lesson learned. We actually 
were assuming until Haiti that wireless communications in areas 
of devastation would be unreliable and we really would not need 
to plan for it. Haiti taught me that the industry has learned 
and is becoming more resilient, and oftentimes it will probably 
be for many people in the public the first communication that 
comes back up is going to be the wireless services.
    Senator Pryor. Right. We have a chart here--the second 
chart,\1\ Don, if you do not mind--and it shows Internet usage 
after four major events, and Haiti is one of those. Then you 
mentioned Christchurch, New Zealand;  Chile; and Japan. And as 
I understand that chart, the peaks are the top Internet usage, 
and the valleys are usually at night when folks were sleeping. 
But you see that they keep using the Internet, and it is a 
great way to communicate with folks. And like you said, a lot 
of folks are out of their homes at this point, or they may not 
have electricity or whatever. They may not have access to their 
stationary device, but their mobile device they certainly can 
utilize. So I am glad that FEMA is on top of that trend and is 
really leading the way in that trend to try to communicate in 
that way, two-way communication, you are hearing from people, 
but also you are communicating back to people what they know.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Pryor appears in the appendix 
on page 93.
---------------------------------------------------------------------------
    So in some ways, it sounds like social media is the 
emergency manager's dream because it is such a tool that is so 
widespread in so many people's hands. Is that fair to say?
    Mr. Fugate. Mr. Chairman, some of my peers now equate the 
wireless combined with social media as a revolution in 
emergency management as powerful as wireless was to original 
public safety radio systems, except now this is far more 
reaching in the ability to communicate with the public. And so 
as we see this, again, I think our role here at FEMA is to keep 
up with the public and not necessarily fall back into what I 
call innovation at the speed of government, but really look to 
the technology industry, and as Senator Brown said, I have had 
the opportunity to go to Google, I have been to Facebook, I 
have been to Twitter, and really looking into their insights of 
how we better utilize the private sector as part of the team 
and not try to re-create things that they do better than us, 
but use those tools to better communicate and listen to the 
public as we deal with disasters.
    Senator Pryor. Is it your impression that during a disaster 
the public will find you using social media? Or do they know 
where to go?
    Mr. Fugate. No, sir. Again, those people that have had 
disasters do not, and so this is why we work so hard. And I 
appreciate every time--this is pretty much the drill, is to get 
people to register with FEMA, get the information out there. So 
it is always for us important to get people to know where they 
can get that information. Part of this is working with the 
States, things like joint Facebook pages. But I think, by and 
large, most people are not thinking about FEMA, and that is why 
trying to build systems that are government-specific tend to 
fail. It is our ability to use the tools they are using and 
then direct them to things they are used to using. I mean, if 
you think about it, when we tell people to go to a Web page 
that is our typical Federal Web page, it is not easy to find 
the information in a disaster. That is why we built the mobile 
page so that when you send them there, it is strictly about 
disaster information that they need, not, the traditional way 
that we oftentimes put information on a Web page.
    Senator Pryor. Great. As you are going through this over 
the next few weeks, I hope you will keep the Subcommittee 
posted on how many folks are using your page and how that is 
going.
    Mr. Fugate. We have that, and we will provide that back to 
staff. You can actually see some of the data of who is using 
the mobile page, who is using Web pages, versus the traditional 
calling into the 1-800 number.
    Senator Pryor. That would be great. Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.
    I appreciate the fact that you have been trying to push out 
their home page Web page information, and when I was preparing 
for the hearing and seeing how we could help, our office could 
help, we are going to actually do the same thing. We are going 
to put it on our official site in the event of an emergency who 
you can contact, how you can do it through the various social 
media or the traditional as well as the new ones, and on our 
Facebook--I mean, I think I have 250,000--we are going to do 
the same thing there because I think it is so important to get 
the information out, because when you are having that natural 
disaster, you are not thinking about you want to just get in 
touch with somebody, and you are going to use any mechanism, 
any phone, land line, shortwave radio, whatever, to help your 
family and help the people that you care deeply about.
    So this hearing and being here as the Ranking Member 
triggered me to work with my office to develop a plan as to how 
we can, in fact, get that information out. I would encourage 
all of us as elected officials to do the same thing.
    I noted that the Washington Post stated that people 
frantically text 911 in an emergency, apparently, and they are 
unaware that their texts actually go nowhere because in all but 
a few cases it has not been modernized to actually receive the 
messages. And people have a lot of faith in 911. I mean, you 
hear the commercials. We hear regularly, we honor young 
children regularly for calling 911. But now they text 911.
    What are the biggest challenges actually to bringing the 
emergency services like 911 into the 21st century in your 
opinion?
    Mr. Fugate. This is a project that the Federal 
Communications Commission (FCC) is heavily engaged in called 
Next Generation 911, and it is a recognition that as technology 
has continued to evolve, it has evolved faster than the 
original 911 system design. When 911 was originally created, we 
used rotary dial phones. It was an analog technology. Over 
time, we have added the ability to give the address and the 
location and phone number that people were calling from. But 
then cell phones started to occur, and all of a sudden we 
realized that all of those phone lines were hardmapped; cell 
phones are not. And so the industry and the FCC worked to be 
able to map cell phones, so if you could not tell people where 
you were but you were calling for an emergency, they could find 
you with your cell phones.
    But now we have, as you point out, people that are using 
text messages. As the Red Cross survey says, when people text 
or update or tweet for help, they expect there to be an answer. 
And this is something that Next Generation 911 is looking to 
address.
    Most likely the first part of that will be text messaging 
because it would be very similar to a traditional 911 call from 
a cell phone. The other types of social media are going to take 
more time, but I think it is a recognition that the FCC--that 
we need to do that to get that help, but also what it could 
provide to the responders. And I think in looking at what is 
done in Europe and other places, oftentimes they have the 
capability to take live video feeds from people on the scene 
and give it to the responders as they are en route.
    Part of our challenges are 911 was--essentially the 
architecture and the equipment and the investment was based 
upon rotary phones and push-button phone technology. And now as 
the FCC looks at Next Generation 911, how do we incorporate the 
new technologies and not limit ourselves to just the voice 
calls?
    Senator Brown. And that is a good segue into my next 
question, approximately a $9 billion price tag to actually 
implement those potential changes in a time when we are in a 
fiscal emergency and dealing with a lot of issues. With Senator 
Carper, I am on a Subcommittee that deals with fraud, waste, 
and abuse, trying to zero in on all that stuff. Is there a way 
not to reinvent the wheel and work with companies like Google 
and Facebook and Twitter, wherever the social media? I know 
these entities did not reinvent the wheel and did not start at 
the base level and then have to spend a tremendous amount of 
money and maybe incorporate a lot of what is already out there 
so we can just, add on and potentially save dollars. Is that 
possible?
    Mr. Fugate. Having served at the county level where I was 
actually responsible for the 911 system, and knowing that 
history of primarily the wired telecodes, as the providers of 
both the technology and equipment, I think this will be one of 
the challenges as we move forward to Next Generation 911, is to 
incorporate the other technology players and do that in a way 
that builds a system that we can continue to enhance without 
necessarily limiting ourselves to just what we know now.
    When we look at the architecture of these systems and we 
look at where we were and where we are going, it was--we still 
call them ``public safety answering points.'' It is not a 
network. It is you dial a phone, it goes to a dispatch center, 
and then they operate the call from there. And I think a 
network-based approach like we are looking at with public radio 
for public safety, looking at network-based radio systems, is 
the direction that Next Generation 911, and that will open up, 
I think, a lot more of the technology companies. But I think 
you are correct in that this has to be done not just what the 
immediate needs are, but also building a system that we are 
going to be able to adapt to new technologies that we may--
nobody knew about Twitter 5 years ago.
    Senator Brown. Right.
    Mr. Fugate. And so in looking at systems that oftentimes 
take decades of capitalization to build is how do we build a 
system----
    Senator Brown. That is adaptable, yes.
    Mr. Fugate [continuing]. That allows us to adapt to the new 
technology.
    Senator Brown. I know with the storms and everything that 
has happened recently in Alabama and around the Southeast, when 
telephone and cellular service is interrupted, what are the 
Federal Government's efforts to set up mobile cell towers, 
charging stations, Internet hotspots in disaster zones? And is 
this part of an SOP in times of major events? Do you have 
working partnerships with any of the mobile companies to do 
these sorts of things?
    Mr. Fugate. Yes, sir. This was something that I have been 
pushing for a long time. Our primary focus with our Federal 
communication assets has been to get the public safety 
responders back on the air, and so that will continue to be the 
priority. But I have also asked my staff to work with the 
industry that I agree with you, I think it is just as important 
that we get connectivity back to the public. And you brought up 
something that I asked our team about, and we are working with 
industry. We had oftentimes brought in phone banks into areas 
of devastation so that people could start making phone calls. 
We have asked and are working on--and I believe I had a report 
this morning that Verizon is starting this process--is to get 
cell phone chargers out there.
    Senator Brown. Right.
    Mr. Fugate. So that people can charge their communication 
devices. And, again, I think this is--oftentimes we tend to be 
reactive, but, again, it points out the need for looking at how 
the public communicates in recognizing that, yes, phone banks 
are good, but, hey, also cell phone chargers for the variety of 
cell phones is also something that is just as much needed.
    Senator Brown. Just a final thought. I would think that 
would want to be part of FEMA's, mobile response, a lot of 
the--whether it is the cell charger units or whatever. So I 
would just--I am sure they are considering it.
    Mr. Fugate. We are definitely going to be adding that to 
the toolkit, and it is being implemented as we speak now 
throughout many of these areas.
    Senator Brown. Thanks for what you are doing. I appreciate 
it.
    Senator Pryor. Director Fugate, before you run, I just have 
one or two followups.
    I am going to get you to put Slide 1 back up.
    One thing you will see on this Slide 1,\1\ it is great 
information, but 69 percent of people out there think that 
emergency response agencies should regularly monitor their Web 
sites and social media sites so that you all can respond 
promptly. I guess the question is: Are we building an 
expectation here that we cannot meet? And are we monitoring 
these as we should? Some of this may be State-by-State or even 
city-by-city issues. But do you want to respond to that?
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Pryor appears in the appendix 
on page 92.
---------------------------------------------------------------------------
    Mr. Fugate. Yes, sir, Senator. This is one of the questions 
that in some cases people are saying should we be doing this 
because we may create a false expectation. I think, again, as 
we do this, we are really trying to figure out how is the best 
way to direct people to the best information, which oftentimes 
is their local emergency managers and then their State 
emergency managers, and then what information we provide from 
FEMA. But we do agree that if you are going to post a blog, we 
do moderate our comments; we do not necessarily--what we do is 
we just make sure that whatever comments there are not 
offensive. But we do not self-censor any criticism. We post it. 
So the only moderating we do is to make sure there is not 
offensive material, but we will post the good and the bad and 
the ugly. And then as we see stuff, we will respond to it.
    But we also really need to make it clear that in many cases 
it is very difficult to have one-on-one conversations. In many 
cases we are listening to what the community is telling us. And 
we may not be able to directly respond one on one. So this is 
the concern and one of the reasons why we make it very clear. 
If this is an emergency, contact 911, contact your local 
responders. If this is information or opinions or what you are 
seeing, we want to look at it. But we may not be able to 
respond to each one of those postings.
    And so these are kind of the challenges. I said, we have to 
be able to listen to the community, but we may not be able to 
have that conversation one on one. Yet in one event I actually 
did. We had a tropical cyclone in the Central Pacific bearing 
down on American Samoa. I was updating and tweeting out that 
the forecast, which most people would think would come from the 
National Hurricane Center, actually had come from the Central 
Pacific Hurricane Center in Hawaii. I had a person tweet back 
to me that he was on the island and these were the conditions. 
And I sent back and I said, ``Thanks for the updates. Can you 
keep sending them?'' So we kept using--and we were using the 
hashtag of the name of the storm, so he kept giving me updates.
    And so in real time I had a person that was down there in 
American Samoa giving me updates about the tropical cyclone. 
Then it was kind of a--it was almost humorous, but it gave a 
good sense of what was going on.
    Midway through the back end of the storm, he begins 
tweeting the Chicago Bears/Green Bay game because he was a 
Packers fan, and I realized that if he is getting information 
about the game and that was his new concern, maybe the storm 
was not so bad, and it turned out that fortunately it was 
minimal damage.
    That is a rare example, but it is also very telling of the 
power of looking at the public as part of the team and a 
resource and doing a better job of figuring out how to 
communicate with them. Again, all I was doing was trying to get 
information out about where the storm forecasts were coming 
from because this is not something many people were familiar 
with. But it is just one anecdotal example of how the public 
can oftentimes tell us more about what is going on than even 
our official sources.
    Senator Pryor. Right. That is great and thank you for that. 
Senator Brown, did you have anything else?
    Senator Brown. No, Mr. Chairman.
    Senator Pryor. Director Fugate, thank you for being here 
today. We probably have some more questions for the record that 
we will submit, but thank you very much for being here. I know 
you have to hurry back to do your job, but thank you very much 
for being here.
    Mr. Fugate. Thank you, Mr. Chairman, thank you, Senator 
Brown.
    Senator Brown. Thank you, sir.
    Senator Pryor. As Director Fugate is leaving, we will go 
ahead and set up the table for the next panel.
    We will go ahead and set up the witness table for the next 
panel, and I will go ahead and do a general introduction of 
folks as we go through this, as they are getting squared away.
    Our first witness will be Renee Preslar, public information 
officer for the Arkansas Department of Emergency Management 
(ADEM), and she has had her hands full over the last couple of 
weeks, and she has been a vital resource in managing 
communications in some of Arkansas's worst disasters. So thank 
you for being here today.
    And, second, we will have Suzy DeFrancis, chief public 
affairs officer of the American Red Cross. We appreciate you 
being here, and you guys have been very, very busy around the 
Nation, particularly in the South, but other places as well, 
and we really appreciate your time today.
    Next we will have Shona Brown. Thank you for being here. 
She is Senior Vice President of Google.org, and she has 
spearheaded Google's people operations and business operations 
groups since 2003. She will share some of her experiences with 
us today, and we appreciate that.
    Then we will have Heather Blanchard, the co-founder of 
CrisisCommons. She has helped establish CrisisCommons, seeking 
to connect people and organizations using technology to 
innovate crisis management and global development. She will 
detail her experiences with recent disasters as well as 
emerging trends in the use of social media in emergency 
response.
    So, again, I want to thank you all for being here. Ms. 
Blanchard, I understand your mother is in the audience as well. 
Is that true? Good. Thank you, Mom, for being here. We 
appreciate that very much.
    What I would like to do is if we could do 5-minute opening 
statements and try to keep those to 5 minutes as best as 
possible, and then we will ask a few questions.
    Renee, do you want to go first? Thank you.

  TESTIMONY OF RENEE PRESLAR,\1\ PUBLIC INFORMATION OFFICER, 
          ARKANSAS DEPARTMENT OF EMERGENCY MANAGEMENT

    Ms. Preslar. First of all, thank you guys so much for 
letting us come. I know all of us have been a little bit busy 
with the storms that have come through the Nation, but we feel 
like this was extremely important to kind of go through and 
explain what we do not only from the State's perspective but 
also from the local perspective, so we can hopefully move 
forward with the social media presence in disasters.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Preslar appears in the appendix 
on page 42.
---------------------------------------------------------------------------
    Arkansas have been using social media pretty much since 
2008. We started a little bit with Facebook, but it was not 
just because it was something new and we thought this was 
amazing, it was something new we could do. It was because we 
physically saw documentation where our communities were coming 
together on these social sites in the wake of disasters, and we 
realized that, you know what? That was a venue and a media and 
an audience that we were not reaching directly because we were 
using our traditional sources, our print, our television, our 
radio stations. But using online, with the exception of our Web 
site, as a media outlet and as a tool we just had not done yet. 
And so we saw that was a vital resource, so we began with 
Facebook and used it on a preparedness stance before disasters, 
talking about what you can do. You can get a kit, you can make 
a plan, you can get prepared. You can stay informed with all 
the information that is going on.
    And we used it a little bit also as a mitigation aspect of 
disasters, too, simply to show people different projects that 
they could do to protect themselves in wakes of disasters.
    And then after the storms, the severe storms, the tornadoes 
that came through the positions, we had the tornadoes on 
February 5, and then we dealt with a lot of flooding in May and 
March and April and then December I think again. And then we 
had more tornadoes that seemed--and we saw where there was a 
need for us to transition from the preparedness and the 
mitigation side over to response and recovery on the social 
sites. So socially we began putting out messages on Facebook 
and on Twitter talking about these specific areas need to take 
cover. We worked directly with the National Weather Service. 
They were not on any social sites at that time. So the 
information that we were receiving from them, we would go ahead 
and pass along information, too.
    In the State of Arkansas, the way that the locals can get 
the sirens, tornado sirens, things of that nature, it is 
governed by the local individual jurisdictions. So some 
jurisdictions use tornado sirens. Some use reverse 911 and 
things of that nature. But we wanted to make sure that people 
had an ability to get information from wherever they were 
going, and that is what we started using, because you might not 
be in your home listening to the television or you might have 
satellite television and so during severe weather the TV goes 
out, and so you need to have an additional outlet to get that 
information.
    So we decided that we would go to them and use that as a 
tool to go ahead and take care of them making sure that they 
still got their emergency information taken care of.
    In the recovery process it works fantastically because in 
some areas--all across the State we are dependent upon locals 
to get our information, the local emergency managers. But when 
they are dealing with life-saving resources, we go to those 
local communities that are individuals on Facebook and social 
media sites to get disaster information so we can then again 
take it to those emergency managers in their communities to 
make sure that they can get the resources that they need.
    Senator Pryor. Ms. DeFrancis.

 TESTIMONY OF SUZY DEFRANCIS,\1\ CHIEF PUBLIC AFFAIRS OFFICER, 
                       AMERICAN RED CROSS

    Ms. DeFrancis. Thank you, Mr. Chairman, and as you said, 
the recent deadly storms across much of the South and Midwest, 
including your home State, really underscore the timeliness and 
importance of this hearing.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. DeFrancis appears in the appendix 
on page 47.
---------------------------------------------------------------------------
    As you know, the mission of the American Red Cross is to 
help people prevent and prepare for and respond to disasters. 
But today I want to talk about how social media is enabling the 
public to play a much bigger role in helping us with that 
mission.
    I want to draw your attention, as has been referenced, to a 
gap that exists today between the public's use of social media 
in a disaster and the ability of disaster response 
organizations and relief agencies to act on that information in 
a timely fashion. And, finally, I want to offer some thoughts 
about how we can begin to close that gap.
    The American Red Cross is a 130-year-old organization, and 
tools we use to respond have evolved over the years. But 
perhaps the most exciting innovations are social technologies 
because they allow us to listen and engage with the public as 
never before.
    We saw this with our fundraising efforts during Haiti. When 
we rolled out our mobile giving campaign, ``Text `Haiti' to 
90999,'' it was people on social media who really took it 
viral. In the first 48 hours, there were 2.3 million re-tweets 
of our text number as people sent it to their networks of 
followers. And before long, we had raised $32 million via text, 
$10 at a time, and 41 percent of our text donors were under the 
age of 34.
    We saw the same phenomenon with Japan. The earthquake 
happened at 2:47 a.m. east coast time, and before most of us 
even got into the office, our text number was trending on 
Twitter. Social media communities were way ahead of us in 
trying to give out ways to help.
    But new technologies are not just helping us fundraise. 
They are becoming part of our operational DNA. In Haiti, we 
sent out 4 million text messages to the Haitians about the 
symptoms of cholera and how to prevent it and treat it. Here at 
home we have built a dynamic shelter map with the help of 
Google to update our shelter information. We not only have this 
on our Web site, but we have built an iPhone app so people can 
find a shelter on their mobile phone.
    And we are also helping families connect in those first 
hours after disaster strikes through our Safe and Well Web site 
where people can post their whereabouts and update their 
Facebook and Twitter status.
    We are training Red Cross volunteers who deploy to disaster 
to use their smartphones and social media to let people know 
where they can go to find shelter, food, and other services. 
And, really exciting, we are creating a new digital volunteer 
role where volunteers can help us monitor, authenticate, and 
route incoming disaster requests without ever leaving their 
homes.
    We know that in a crisis--and it has been said--people turn 
to the communication tools they are familiar with every day, 
and disaster response and relief agencies must do the same. You 
referenced our survey, Mr. Chairman, and we found that more Web 
users get emergency information from social media than from a 
NOAA weather radio, a government Web site, or an emergency text 
message system. Not only are they looking for and seeking 
information, they are sharing it. One in five social media 
users report posting eyewitness accounts of emergency events. 
If someone else is in need, they are enlisting their social 
networks to help or using Facebook and Twitter to notify 
response agencies. And, they expect us to be listening.
    As you said, 69 percent said that emergency responders 
should be monitoring social media sites, and 74 percent expect 
help to come less than an hour after they tweet or post on 
Facebook. These are extremely high expectations, but, 
unfortunately, today they do not match reality. Most disaster 
responders are still not staffed to monitor or respond to the 
flood of incoming requests during major events.
    At the Red Cross, we experienced a heart-breaking situation 
after the earthquake in Haiti. We began receiving tweets from 
people trapped under collapsed buildings. We did not have a 
good way to handle those pleas for help. We had to go through 
the messages manually and try to route them through the State 
Department and other places, and in some cases we were too 
late. These are life-or-death situations, and we must find ways 
to respond more quickly.
    While we will not solve these issues today, we are making 
progress in collaboration with our partners, as was just 
demonstrated in Alabama. People affected by the tornado were 
posting needs to an online gathering point. Working with an 
organization called ``Tweak the Tweet,'' as well as with FEMA 
and CrisisCommons, we were able to share that information with 
the Alabama State Emergency Operations Center (EOC). For the 
first time, we were able to connect crisis social data with 
decision makers who can act on it.
    I believe you can help us continue to find ways to link up 
social data with response. We also believe, as you discussed 
with the Administrator, that the Federal Government does have a 
role in helping with the Next Generation 911. We agree that the 
first and best choice for anyone in an emergency is to call 
911. However, 911 should be compatible with text and social 
media.
    If I can leave you with one thought, it is this: Social 
media is enabling real citizens to play a role in helping their 
neighbors down the street, across the country, and around the 
world. What we do to help that process will literally save 
lives and help ensure that our country is as prepared as 
possible to handle any disaster.
    Thank you again for your leadership on this issue, and I am 
happy to answer any questions you may have.
    Senator Pryor. Thank you.
    And now, Ms. Brown, I understand you have a video that you 
want to show. Is that right?
    Ms. Brown. Yes, I would like to start with a short video, 
please.
    Senator Pryor. OK. That is fine. If you want to start with 
a short video, that is great. Are we cued up on that? Sure, go 
ahead. [Videotape played.]

    TESTIMONY OF SHONA L. BROWN,\1\ SENIOR VICE PRESIDENT, 
                           GOOGLE.ORG

    Ms. Brown. Chairman Pryor and Ranking Member Brown, thanks 
for inviting me here today and for your attention to this 
important issue. I would like to apologize for my voice. I am 
the picture of California health. I oversee Google's efforts to 
use the power of technology to deliver critical crisis-related 
information, and this includes the team that develops tools 
like Google Person Finder, which helps loved ones reconnect 
during emergencies.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Shona appears in the appendix on 
page 53.
---------------------------------------------------------------------------
    Our thoughts are with the communities that have just been 
hit by devastating tornadoes, as has already been mentioned, 
and across the United States which took the lives of, it looks 
like, over 300 people--a stark reminder of the important role 
of relief organizations. I am here today because we believe 
technology can make their jobs easier.
    In the aftermath of last week's tornadoes, we supported the 
Red Cross, as already mentioned, by providing maps that located 
nearby shelters. We updated satellite imagery for first 
responders, and we directed local users searching for 
``tornado'' or ``twister'' to the maps through an enhanced 
search result.
    We are not experts in crisis response, and we play a modest 
role compared to the relief organizations and agencies. But our 
experiences over the past few years have given us a unique 
vantage point. In fact, in just the last 4 months, we responded 
to more crises than we did in all of last year. Based on this 
experience, I will outline three reasons why simple standard 
and open Internet-based technologies are critical tools for 
emergency responders and affected populations. I will also 
suggest how the government can support these tools.
    First, I would just like to tell you about a father who 
used one of these tools to find his son in Japan. Tom 
Stormonth's son, Liam, was teaching at a school in Sendai, 
Japan, when the earthquake struck. Tom was unable to reach his 
son by phone because the networks were damaged and overloaded. 
So he turned to Google Person Finder. He posted a picture of 
his son and asked what any worried parent would: ``If anyone 
has seen him, please let me know he is still OK.''
    A few hours later, someone responded and said that Liam had 
taken refuge at a local elementary school. A few hours after 
that, Liam responded to his father's message saying, ``Alive 
and well.'' And not long after that, Tom was able to use the 
Internet-based Skype application to video-chat with his son.
    So what makes the Internet so useful following natural 
disasters and such a comfort to people like Tom? First, the 
Internet often remains available when other networks fail. In 
Japan, when other communications systems were unstable, the 
Internet was uninterrupted. Because of this we were able to get 
Person Finder up in Japan in only 90 minutes.
    Second, during emergencies people tend to turn, as has been 
mentioned, to simple, standard, and open Internet services that 
they know well. After the earthquake in Haiti, we sent a team 
to Port-au-Prince to better understand how relief organizations 
were using Google tools. Our team was embedded in a refugee 
camp with the 82d Airborne, and one of the officers explained 
that soldiers use Google Maps to plan patrol routes for the 
area because they use tools they are used to.
    Finally, the Internet scales and promotes openness. After 
the earthquake in Haiti, we found there were 14 individual 
missing person databases. They were not integrated, and they 
all ran on different infrastructures. We saw an important 
opportunity to leverage the power of crowdsourcing to create 
one common database, pushing and pulling feeds from all 14 
databases. That idea became Person Finder.
    The response has been overwhelming. Person Finder managed 
more than 600,000 records following the earthquake in Japan, 
and there were more than 36 million page views within the first 
48 hours alone.
    Google has the infrastructure to handle that volume with 
ease, and the Internet remains stable, allowing people to 
connect. Before Person Finder, Tom Stormonth would have had to 
go to multiple Web sites and check and re-check in order to try 
to find news on his son.
    In addition, long before the recent flooding in Pakistan, 
two Pakistani Web developers noticed that available maps of 
their country were incomplete and inadequate, so they used 
Google MapMaker to add and update geographical information for 
millions of people to see in Google Maps and Google Earth. When 
20 percent of Pakistan was underwater, we shared our MapMaker 
base data with UNOSAT, the UN's primary mapping agency, to help 
them plan their recovery efforts. Similarly, our friends at 
Open Street Map created the most complete map of Haiti's roads 
ever made by getting the Haitians to volunteer their knowledge.
    What can government do to support these kinds of tools? It 
can adopt simple, open, and standard ways of publishing and 
disseminating emergency information. Divergent standards make 
it much more difficult to collaborate and respond quickly in 
situations when speed is of the essence.
    For example, we have lost valuable time trying to gather 
and translate into open standards information kept in arcane 
formats on government Web sites. Also, critical information is 
sometimes spread across multiple Web sites. And in other cases, 
important data is not even online at all, but stuck on a 
spreadsheet stored on somebody's desktop computer.
    In particular, alerting systems that leverage the Common 
Alerting Protocol (CAP), standard could quickly inform users of 
impending crises such as tornadoes or tsunamis as well as 
everyday problems like transit delays. If alerts are 
implemented in an open fashion, governments can provide trusted 
information, and private actors like Google and others can 
publish updates that are easily accessible to people when they 
search for information on their computers or their smartphones. 
This work can be coordinated with a commercial mobile alert 
system, for example, so that people have the same opportunity 
to receive alerts through telecommunications providers or 
Internet providers.
    I would like to conclude by thanking Chairman Pryor and 
Senator Brown and this Subcommittee for holding this hearing 
today. We play a modest role, but we are committed to working 
to help users and relief workers instantly find the information 
they need during emergencies.
    Thank you.
    Senator Pryor. Thank you. Ms. Blanchard.

  TESTIMONY OF HEATHER BLANCHARD,\1\ CO-FOUNDER, CRISISCOMMONS

    Ms. Blanchard. Good morning, Chairman Pryor, Ranking Member 
Brown, and distinguished Members of the Subcommittee. My name 
is Heather Blanchard, and I am the co-founder of CrisisCommons, 
a volunteer technology community (VTC) that connects people and 
organizations who use open data and technology to innovate 
crisis management and global development. Before this position, 
I spent 7 years at the U.S. Department of Homeland Security, 
including the position of Deputy Director of the Ready 
Campaign. On behalf of our community, it is a true honor to 
testify before you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Blanchard appears in the appendix 
on page 58.
---------------------------------------------------------------------------
    When a crisis occurs, it is not emergency responders who 
are first on the scene. It is everyday people who use everyday 
resources like their mobile phone and social networks to share 
what they know. This could be a road blocked by a tree after a 
storm or creating a map of where they see wildfires. Today 
there are many volunteers who leverage technology, like 
CrisisCommons, that can direct technical capacity, harness open 
data and collaborative tools to help first responders and 
communities make sense from the deluge of information that 
occurs in a crisis. We believe that information at the right 
time and right place can help response authorities and citizens 
make better decisions especially in a crisis.
    Since the spring of 2009, CrisisCommons has been an open 
forum to explore how information, including social media, can 
help in a crisis. Our community has supported organizations and 
citizens in the response to the Haiti and Japan earthquakes, 
Tennessee floods, and last week's historic tornadoes which 
impacted the southeast. Just to share an example, during the 
blizzard which paralyzed Chicago this year, our volunteers 
through CrisisCampChicago in collaboration with Humanity Road 
supported the Chicago Tribune Snow Map to assure that public 
requests for assistance were routed to 311 and other local 
authorities.
    One challenge that we often see is that government agencies 
simplify the use of social media as a public affairs function 
when, in fact, during a crisis access to citizen-generated 
information is an operational necessity. As an example, this 
year during our support for the National Level Exercise, the 
situational awareness work group that we participated in 
struggled to define how social media information would be 
coordinated from an operational perspective as there is not a 
resourced function which connects open data, including social 
media, and leverages potential surge capacity from communities 
like CrisisCommons. We would like to recommend to the Committee 
that government create an operational liaison function which 
connects volunteer technology communities to our response 
systems at the Federal, State, and local levels and be 
resourced for support during steady State and in crisis events. 
We recommend that current emergency management doctrine be 
revised to include the capacity to harness technology volunteer 
expertise and collaborative systems.
    Another challenge we have observed is that in local 
Emergency Operations Centers the connection between social 
media information and operations is largely absent. We were 
shocked to find that some centers lacked high bandwidth 
Internet, technical skills, or collaborative tools. We were 
also dismayed to find that many agencies have stringent 
security policies blocking their workforce from using social 
media tools for operational purposes. Without this capability, 
emergency managers could be missing critical information in 
their operational picture. We recommend that emergency 
management infrastructure be fully modernized. We also 
recommend that policy and incident management doctrine be 
modified to allow emergency management personnel to engage 
outside of their own organizational networks to take advantage 
of social media tools and capabilities.
    As you can see, emergency management may not be prepared to 
utilize social media tools and data to augment their operations 
and to inform their mission priorities. When there is a crisis, 
emergency management continuously find themselves overwhelmed 
with information. We recommend that resources be devoted toward 
helping emergency managers with data preparedness and 
filtering, increasing the level of digital literacy of the 
emergency management workforce, and empowering their ability to 
connect with technology support.
    In looking at the government's role in this ecosystem, the 
days of agencies passively sitting on the social media 
sidelines from behind the firewall are over. The time has come 
to evolve to a more open and participatory crisis management 
model. We believe that the Federal Government has a leadership 
role to play, but, again, we feel that institutional support is 
needed to move us to the next level. To emphasize we recommend 
the following:
    Create an operational liaison function to coordinate with 
volunteer technology communities;
    Revise policy and incident management doctrine to 
incorporate social media and other technology capabilities;
    Invest in modernization of emergency management 
infrastructure and collaborative tools;
    Support data preparedness and filtering, increasing the 
level of digital literacy of the emergency management workforce 
and, again, empowering their ability to connect with technology 
support.
    In spite of these challenges, we know of many emergency 
managers who are pushing the envelope every day, sometimes at 
their own professional risk, to apply social media tools and 
data in their work. We are supportive of the enlightened 
leadership that Administrator Fugate displays every day. He has 
opened the door to discussion and experimentation that we see 
today. However, individuals cannot change institutional 
challenges by example. Today we are asking for your help to 
support the needed enhancements that emergency management needs 
to fully utilize social media information and providing 
connectivity to communities who can support their efforts just 
like CrisisCommons.
    Thank you very much for the opportunity to testify before 
you today, and I look forward to answering any questions you 
may have.
    Senator Pryor. Thank you. I want to thank the panelists.
    Senator Brown needs to slip out here in just a few minutes, 
but he wanted to ask a few questions before he goes. Take as 
long as you want.
    Senator Brown. Thank you for that courtesy, Mr. Chairman. 
Thank you.
    When introducing the first question, it should be noted 
that two of our four witnesses are actually public affairs 
officers, and with that, my question is: How do we start 
utilizing the tools that we are talking about beyond simply 
public engagement but to actually informing them of operations 
and actually respond, in fact, to what is happening? Ms. 
DeFrancis is probably the best one.
    Ms. DeFrancis. Thank you. You are right, we are public 
affairs. That is where social media sits today. We have a very 
small crew, two people. If I could introduce Wendy Harman, who 
is our director of social media and does a fantastic job.
    What Wendy and her team are now trying to do is get social 
media into our own disaster operations center right there at 
headquarters to make sure that the people who are actually 
setting up shelters and all that are getting this information 
and are integrating it. We now have Twitter feeds going on in 
our disaster operations center to pay attention to this. This 
is important.
    As I mentioned with what happened in Alabama, there are the 
first beginnings of being able to take this data--and I got to 
tell you, it does not come in a neat kind of easy-to-read 
format. It comes in a lot of places, different hashtags and 
symbols, and it is hard to read. But working with CrisisCommons 
and other groups, we are trying to understand what are the 
needs of these emergency operations centers.
    In Alabama, they told us to put it clearly: food, water, 
shelter; organize them that way so we can read them quickly and 
figure out how to act on them.
    So I think, like we said, it is trying to make it part of 
operational DNA. It is far more than just listening to people. 
It is really gleaning that information, putting it in a really 
simple format so that emergency responders, who are very busy 
at that time, can act on it.
    And there are also issues of authenticating it and 
verifying it, but it is more, I think, getting it clear to them 
how to use it.
    Senator Brown. It must be interesting, too, the language 
that is used.
    Ms. DeFrancis. When we first took in the CrisisCommons data 
in Alabama to the emergency operations center, they said it 
looks like a spaceship. [Laughter.]
    Senator Brown. Because I know when my own kids send me 
stuff, I have to call them and say, ``What did you just say?''
    Ms. DeFrancis. Exactly.
    Senator Brown. That being said, where is the potential for 
more innovation in this area? And what are some examples, if 
any, of some of the more exciting innovations in this area that 
have actually taken place so far? Either one. Anybody. It is 
really for either/or.
    Ms. Preslar. OK. There are a lot of places to go, but the 
first and foremost thing we have to remember is that disasters 
are local. Disasters do not necessarily happen at the Federal 
level. They do not even happen at the State level. We are not 
first responders. It is those people on the ground, our local 
emergency management offices and things like that. And so I 
think where the new technology needs to come in is to where we 
need the government to work with these social companies to 
create something that our first responders can utilize on a 
ground zero level. Oftentimes, speaking for Arkansas directly, 
a lot of the emergency managers in the areas are a one-person 
staff, and then they rely on their amounts of volunteers that 
come in and help during those times. But we need something to 
where they do not necessarily have to have that person that is 
sitting there 24/7 monitoring the social status of what is 
going on in these different areas. It needs to be able to work 
somehow with the companies, because like we had talked before, 
it was not created for disasters. And now that we see that it 
is being able to be used and used effectively in emergency 
response systems, we need to be able to work with those 
companies to see how we can utilize and kind of narrow it down 
so we can incorporate it at that local level first and then 
move up from there.
    Senator Brown. And, Ms. Brown, if I could ask you a 
question, I know--and I appreciate the video and everything 
Google is doing. The impact of disaster response and the 
dedicated crisis response team that you have, is this a full-
time group within Google?
    No. Press it again.
    Ms. Brown. I am failing Microphone 101, obviously.
    Senator Brown. That is OK.
    Ms. Brown. Yes, we have a dedicated team that is based in 
Mountain View and New York. However, it is important to note 
that when a crisis occurs, it actually brings together, in 
addition to that team, a lot of Googlers who otherwise have 
other jobs. For example, in Japan, we are fortunate to have an 
office there, and so it was not difficult to have a lot of 
people drop their current activities and literally live in the 
office day and night, certainly for the first 4 or 5 days. So 
we supplement that core permanent team as needed with resources 
around the world. But it is a permanent team based in the 
United States.
    Senator Brown. Was there any specific philosophy or reason 
for Google to set up that dedicated team that you saw a need 
and you wanted to go in and zero in or you wanted to be a 
leader in the area? And with that, do you see an expanding 
capacity and dedication of additional resources in this area in 
the future?
    Ms. Brown. In terms of why it entered the area, I mean, 
quite simply it was an area consistent with Google.org's 
philosophy of an opportunity for us to take some of our 
technology and deploy it for social good. We did not spin the 
roulette wheel and pick crisis response, but it looked like 
something where, quite frankly, information and communications 
are critical, just, of course, as food and water are after a 
disaster. And we seemed very well positioned to help around 
communications and information.
    In terms of increasing our resources, it has grown over the 
last couple of years. Actually over the last year, since Haiti, 
we realized the power of it, and at the moment the team is 
continuing to respond to natural disasters and continuing to 
focus on making the tools more applicable and scalable.
    So, for example, when there is not a disaster happening--
which has been small windows of opportunity this year, 
unfortunately. But when there is not one, they are actually 
working on, OK, what sorts of data might we aggregate ahead of 
time so we could respond faster and so on.
    Senator Brown. Thank you.
    Ms. DeFrancis, is there any area where you may need 
Congress' help in legislation to streamline, consolidate, make 
better, more efficient, anything like that, that you or anyone 
else maybe can think of?
    Ms. DeFrancis. Senator, if I could respond just quickly to 
your last question about innovation, one of the things we are 
learning--I mean, none of these tools were available back 
during Hurricane Katrina--Twitter or Facebook. And so here we 
are 5 years later. Then we think, well, what is the next 5 
years? So I would say whatever solutions that we all are 
working towards, we need to be careful not to tie it to one 
particular application or technology because they are changing 
so rapidly.
    I think in terms of the help we need, I think just holding 
this hearing is really great because it raises the prominence 
of these issues so that people begin to think about them, begin 
to work around them. We are having great success working in 
collaboration with FEMA and other government entities. As 
Heather said, Administrator Fugate has been terrific in that 
regard. We are working with all of these groups here, Senator, 
and Twitter and Facebook, and I think there is kind of a crowd 
mentality that comes together with this medium. And so I am not 
sure that I think government should jump into the middle of it 
or try to interfere with what is happening. But I think that 
there are places where probably government is needed to provide 
the resources, and we mentioned the emergency 911 as one of 
those examples and bringing together wireless companies to do 
that.
    Obviously at the Red Cross we will need to continue to 
invest in new technology. We want to get this where it is not 
just a manual thing, where we have to have people monitoring 
every second, but where it begins to become a stream that is 
automatic, that goes into the right places in these operations 
centers. We will have to invest in training----
    Senator Brown. Can I just ask kind of a followup to that?
    Ms. DeFrancis. Yes.
    Senator Brown. Not to interrupt, but is there a point where 
it is too much information? It seems like it is overload. You 
have a crisis. Everyone wants to do the right social thing to 
help and be helpful. At what point, though, is it, like, OK, we 
get it? How do you draw that line?
    Ms. DeFrancis. Yes, Senator, I think it can be 
overwhelming, and that is why we are trying to find the common 
standards and ways in which we can feed this information so it 
just does not all come in at once in different ways. I think 
Heather is working on that. Heather, I do not know if you want 
to address that aspect.
    Ms. Blanchard. Sure. I think that when we talk about 
information overload, what we are really talking about is a 
lack of filters. You really need to be able to look at the body 
of information. It is kind of like a river, if you will, and 
the river is flowing. And during a disaster, the river is 
overflowing. And what you really need is filters.
    And a lot of times those filters really operate based on 
data standards, and data standards is something that is really 
important in this area. And the question is, like in an 
operations center, who is sitting in the seat that is creating 
the filters for that information? And so being able to kind of 
have that eye for the kind of information that needs to come in 
to be able to augment the operational picture to better make 
decisions for the people that--from the incident manager all 
the way up to Craig Fugate. And I think that there is a common 
misperception is that--there is a term called ``common 
operating picture,'' and in a way, like what you really want is 
a user-defined operating picture, because what an incident 
manager needs to see on the front lines is very different than 
what Craig Fugate needs to see. But they need to be able to 
have access to the same pool of data. So open data is really 
important. It is really the backbone of what we are talking 
about. And social media is information that becomes points of 
data. So if you have a tweet and that tweet has--you turn your 
geolocation on your phone, well, that tweet can be mapped now. 
But a lot of times people when they tweet, they do not have 
their geolocation on their phone, so we cannot say, OK, here is 
a damaged building unless they give you context to say it. But 
if they did not give you any context and they have their 
geolocation on, we can automatically pull that into a map, and 
that gives emergency managers better information.
    Senator Brown. Thank you, Mr. Chairman, for holding this 
hearing. I appreciate the opportunity to participate.
    Senator Pryor. Thank you.
    Senator Brown. Thank you, everybody.
    Senator Pryor. Thank you for being here today. See you 
Monday.
    Thank you all for all your testimony. Let me dive in with a 
few questions. I actually have about 10 pages of questions. I 
am not going to worry about---- [Laughter.]
    But I do have several questions, and in the interest of 
time, I may submit some for the record. I do not really know 
where to start, so, Ms. DeFrancis, let me just start with the 
Red Cross. Something you said in your testimony--everything 
that you all said caught my ear, but something you said in your 
testimony that caught my ear is in Haiti the Red Cross sent out 
4 million texts to people, which I think is a great tool and a 
great resource. I am curious about how you got all those phone 
numbers to text, and also I am curious about do you have that 
capability in the United States with various privacy concerns, 
et cetera.
    Ms. DeFrancis. Thank you for that question. In Haiti, cell 
phone use is incredible. I think it is like 90 percent of the 
people in Haiti have cell phones. And as they were going into 
these camps and tent areas, we were registering them. We 
actually piloted a program to see if we could actually give 
money to families through their cell phones so that they would 
go to a particular place, a disbursement place, and get money 
right into their hands so that they could provide for the needs 
of their families.
    So there we had people going into tent communities where 
they were registering, and that is how we were getting those 
cell phone numbers and were then able to push out the right 
information.
    To be perfectly honest with you, Senator, I do not know 
that we have that capability right now here in the United 
States. It is certainly something that we are looking at. I 
know that certainly emergency management agencies are looking 
at that. But, when a crisis strikes, the first thing you grab 
is your cell phone or your car keys. And so to be able to have 
that ability to push that information out would be terrific, 
and maybe that is an area that we can all work together on.
    Like I say, I know government is working on some of the 
things, but we at the Red Cross do not have all those phone 
numbers by any stretch.
    Senator Pryor. Did you have any success with your pilot 
project about texting people some sort of voucher or a code 
where they could then go get money?
    Ms. DeFrancis. Yes.
    Senator Pryor. Did that work?
    Ms. DeFrancis. It worked in the pilot phase. For a number 
of reasons, the Haitian Government decided, at the end of the 
day, that was not the best thing to do. But we certainly think 
that it will work in future operations because most people are 
familiar with where to go to a bank or something. You will get 
a code through your cell phone, you will be able to take it to 
the bank, and, immediately, the bank can verify that and give 
the money to you. So it is a very fast way to do it, and there 
is kind of a synergy here between people who are now texting to 
give money to help people and people using their cell phones 
now to be able to take that and get that immediate help.
    Senator Pryor. All right. You mentioned in your testimony 
also the Alabama experience where you guys have had a lot of 
success there using social media, and it seems to be working 
well and it seems to be fairly well integrated. What steps do 
you have to do to set that up? Or does it just happen 
spontaneously?
    Ms. DeFrancis. Heather is probably more the expert on this, 
but it happens pretty spontaneously. What happened was that a 
personality in Birmingham set up, kind of, a Web site and said, 
``Hey, send me all of your needs.'' He was a radio personality 
right?
    Ms. Blanchard. Yes.
    Ms. DeFrancis. And so people began to text all their needs. 
And they are everything. They are everything from, ``I need 
baby food, diapers,'' things like that. Someone needs tree 
removal at their home. Others, shelter, a church is setting up 
a shelter, they need volunteers, they need, diapers, these 
kinds of things. And all these needs started pouring in. And, 
so what the emergency operations center said was, ``Can you 
begin to put those into a more orderly catalogue so we can 
digest it and then get the help?'' But, really, these things 
grow up organically, and people are looking at that site to 
say, ``Maybe I can go run some diapers over to that site. I am 
nearby.'' And that is great. We want to encourage that. That is 
really neighbors helping neighbors.
    Senator Pryor. Ms. Blanchard, did you want to comment on 
that?
    Ms. Blanchard. Sure. Part of the project really, the 
genesis of it, the Red Cross had come to us, and also Humanity 
Road is a nonprofit that utilizes technology to also be able to 
take information and be able to help people in crisis. There 
were two projects, one, again, with the emergency operations 
center and the other was Tuscaloosa News. Tuscaloosa News 
actually launched a Crowdmap, which is basically an open 
platform where you can actually take pieces of public 
information like Twitter, and it can go on a map. And so we 
heard of that project and this project, and what we wanted to 
do is merge the projects. And so now we have probably about 50 
volunteers associated with another organization called the 
Standby Task Force. And these people are all over the world, 
and they are basically combing the Internet right now as we 
speak to find needs that people are saying in Alabama. And so 
they are taking that information and they are cataloguing it 
and they are putting it on the Crowdmap that Tuscaloosa news 
had generated. Crowdmap is a product of Ushahidi, and Ushahidi 
is an open mapping platform, and that is the platform you saw 
that was deployed during Haiti. It was also deployed during the 
Japan crisis that we just saw earlier this year.
    Part of what we see is that a lot of times a Crowdmap is 
deployed, but Crowdmap may not be exactly the right tool 
because you really need a full instance of a Ushahidi platform 
because you are dealing with a lot of load, a lot of 
information, a lot of customization that needs to happen behind 
the scenes.
    And so we recommended to the Tuscaloosa News and to the Red 
Cross, hey, let us get together and see if we can kind of put 
this in a platform that will really be able to work long term. 
And so right now we have volunteers working basically around 
the clock, and we are actually reaching out to local 
universities to see if they want to host the platform long term 
to make sure that we have local grassroots engagement on it.
    So what the platform seeks to do is it seeks to pull in all 
the needs that people are talking about, and the local EOC is 
going to look at those needs. The people that are planning in 
the planning section, and they are going to be able to say, OK, 
we are planning that these folks over here--we have feeding 
stations in this town, but we are seeing on Twitter that people 
need food. We want to make sure that we are closing the divide, 
closing the gap. And so in a way they are using it to double-
check their planning and operations, which is really 
fascinating.
    So we are really happy to support the Red Cross, and we are 
also really happy to support Tuscaloosa News, and we are really 
hoping to be able to help them over the next coming days.
    Senator Pryor. Is it fair to say that in what you are 
doing, the larger the disaster, the larger the need? Because 
with the larger disaster, there is more devastation and more of 
the sort of local systems go down and more people are impacted. 
Is that fair to say?
    Ms. Blanchard. It is fair to say, but I will give you 
something that is really great to see. In a way, the biggest 
the disaster, the more that people really want to help. And 
sometimes there are really large disasters all over the world 
that people do not even know about. And so what has really been 
amazing is that we have seen this rise of what we call the 
crisis crowd. So a lot of times people talk about the wisdom of 
the crowds and people being able to use crowdsourcing.
    What we have seen and really what Haiti demonstrated was 
this massive ability for people all around the world to connect 
to each other using basically the global platform of the 
Internet and being able to work on common projects. Like 
missing persons, that is a really great example. Missing 
persons that became--after Hurricane Katrina, the community of 
volunteers got together and created actually their own 
technical standard because there was no technical standard that 
was available. And so they actually felt, well, no one is 
creating it, we are going to create it. So that is what created 
the People Finder Interchange Format (PFIF) Standard, and we 
would be more than happy to submit more information about that. 
And that evolved--during Haiti, that evolved into basically a 
lot of technology volunteers that had experience during 
Hurricane Katrina came together and said, hey, there is a data 
standard that is already available, and Google was able to take 
that data standard and actually create their missing persons 
database based on that.
    And so now for CrisisCommons, what we are trying to do is 
that later this month we are actually holding a missing persons 
data summit in Paris to be able to kind of work further on 
privacy issues, being able to figure out how people can be able 
to better utilize this information.
    So there are lots of different pieces, but the crisis crowd 
during every crisis really wants to respond, and what we really 
want to kind of look to see is like how can we make the 
response smarter. How can we make, getting information to a map 
for local needs quicker? How can we have--for example, during 
Alabama, you were talking about categories. What if we had 
predetermined categories? We do not need to even think about 
it. We just go. And so that information, that river of 
information could go ahead and flow into a map and be able to 
really automatically provide information that is critical to 
emergency management.
    Ms. DeFrancis. And, Senator, could I just also add, on the 
local front, though--you talked about major disasters. As you 
probably know, at the Red Cross most of the disasters we 
respond to are house fires, and they do not get a whole lot of 
coverage. But what we are discovering, through our chapters, 
who are also now tweeting and using Facebook, is that we are 
able to bring the local community--make them aware that this 
has happened down the street, and that these are neighbors of 
theirs who need help.
    And so I think it does not just have relevance for the big 
ones that get all the media attention, but it also has 
relevance for the everyday emergencies people go through.
    Senator Pryor. Right. So, Ms. Blanchard, let me ask you--I 
want to talk about the mission persons program or application 
that you offer. How does someone in Tuscaloosa find out about 
the availability of missing persons--or someone in Utah, for 
that matter, wanting to find someone to make sure they are OK 
in Tuscaloosa, how do they know that is out there? How do they 
know that exists?
    Ms. Blanchard. So there is actually--coming from--being at 
DHS for over 7 years, I really kind of got familiar with the 
emergency management protocols, and during disasters in the 
United States, the Red Cross is the lead for missing persons, 
and we really seek to support that. But there are other efforts 
such as Google's missing person finder, which is great, because 
that really condenses the amount of missing persons databases 
that currently are created.
    So when there is a crisis, a lot of people create well-
meaning technology tools, like missing persons databases. And 
what Google did during Haiti was able to collapse those down 
basically into just one that was able to really be propagated 
all over the Internet, which was really helpful. But I think 
that when you talk about if you have a missing persons--if you 
have a family member that is missing, the American Red Cross is 
the place, and the Safe and Well is what FEMA asks people to go 
toward. And we want to support the local response efforts.
    Senator Pryor. And, Ms. Brown, tell us about the need for 
universal data formatting. I mean, I think I understand that, 
but tell me sort of in layman's terms what that means.
    Ms. Brown. Is that working? There we go. Good with 
databases. Bad with microphones.
    So PFIF, which is the standard that Heather was referring 
to, was, as she described, created out of the genesis of the 
Haiti experience and is a standard that we are continuing to 
iterate on today. But the concept is essentially that if you 
receive data, rather than as Suzy was describing it is a 
spaceship and all sorts of different order, it would be an 
order with a field name that you would understand. So everybody 
would call something ``first name'' as opposed to ``family 
name'' or ``F name'' or something. And so that would mean that 
when data was coming in, it could be interpreted, and you can 
have actually different databases easily talking to each other. 
That is the premise.
    Ms. Blanchard. Yes.
    Ms. Brown. So if everybody made the word ``data'' 
compatible with PFIF, then the speed with which everyone could 
talk to each other during a crisis and, therefore, as an end 
result the speed with which someone could be looking for 
something and be able to look into a whole bunch of different 
data sets rather than just one silo here and one there would be 
dramatically increased.
    So that is the basic idea of the data standard.
    Senator Pryor. And so are most people on the same data 
standard? Or are they all over the board?
    Ms. Brown. No, not most, but increasingly there are.
    Do you want to comment, Heather?
    Ms. Blanchard. Yes, we are very much promoting the active 
use of the PFIF Standard, also with basically data 
interoperability.
    Senator Pryor. Right.
    Ms. Blanchard. Making sure that different databases can 
talk to each other. And today, like, that is definitely able to 
happen.
    Senator Pryor. OK.
    Ms. DeFrancis. And, Senator, could I just add? We are not 
the Missing Persons Bureau, but during a disaster we do 
obviously register people in our shelters, and then we take 
them to our Safe and Well Web site and make sure they post 
there.
    But what we are really about with all these technologies is 
kind of like Craig Fugate said, let us not try to fit people 
into our systems, let us try to work with the other systems. 
That is why we became compatible now with Facebook and Twitter. 
We are working with Google on People Finder. Because whatever 
is the easiest way for that person, that is the way we want to 
go. It is not proprietary Red Cross, Safe and Well. It is not 
proprietary. But can we all work together so we get this data 
together and get help?
    Ms. Brown. And just to your question about who is using it, 
I mean, for example, in Japan, we did find that many 
organizations did use this standard, particularly the police, 
and so when you are talking about missing people. But you need 
more organizations using the same--you need all these 
organizations that identify people to be using the same 
standard for it to work perfectly, and we have a ways to go.
    Ms. Blanchard. And the great thing is that everyone here is 
actually--we have monthly calls on missing persons data, and so 
we have been trying to create some kind of continuous 
improvement processes on that. So we are sharing information, 
and we are looking at the standard, and we are hoping to be 
able to contribute something meaningful to it.
    Senator Pryor. Ms. Preslar, let me ask you a question about 
Arkansas and the specific experience you have had in the last 
few weeks in our State with all of our storms.
    Do you feel like that our citizenry and the various 
government entities are using the social media effectively? Do 
you feel like we are sort of following this trend that some of 
these other folks have talked about?
    Ms. Preslar. It is very diversified across the State. You 
will find in the urbanized or the areas closer to the urban--
central Arkansas, there is a large group of people that 
actually do utilize this. In northwest Arkansas, there is a 
large group. There are some in the northeast centered around 
Jonesboro and then some around Texarkana. And then everywhere 
else across the State, Fort Smith included, it is just kind of 
scattered. People may use it, people may not. But I think that 
also has to do with the fact that you see the areas that it is 
followed around right now. It is also the areas that have a 
large media center. You have the television stations and things 
that are localized around there, so you have people that they 
can follow.
    I think that is why I stated earlier, when we talked about 
getting groups of people or getting companies together to 
decide how we can actually use this for emergency management in 
mind will help the local areas, because when you have smaller 
counties that do not much less have a budget, much less, an 
actual county government Web site, social media provides them 
that opportunity not just to do things during the response and 
the recovery phase, because before you can do that, they have 
to know where you can go to get that kind of information, and 
that is where the preparedness phase steps in, is that when you 
have your local emergency managers utilizing this stuff in 
advance of a particular disaster, during that disaster people 
know where to go to ahead of time, and that is why it is so 
important that we go ahead and work on that obviously ahead of 
time to make sure that we can get that together, we can get 
that set in place. And I think that you would see a lot more 
involvement once the individual emergency managers at the 
county level that do not obviously have a budget much less, 
full-time status are able to do this without any, Web training 
or Web experience or know how to do any type of HTML coding. 
They can pretty much enter things into specific sites via a 
blog that is already laid out for them or a Facebook account 
that is already laid out, where they can just put in the 
information and they do not have to worry about how that 
information actually gets to where it is going.
    Senator Pryor. Right. And you are at ADEM.
    Ms. Preslar. Yes.
    Senator Pryor. The Arkansas Department of Emergency 
Management. Do they have a designated person for social media? 
Is that you?
    Ms. Preslar. ``Designated'' is very loosely defined.
    Senator Pryor. Right.
    Ms. Preslar. Yes, I am the one that does it, but it is not 
my sole responsibility. It does fall under the public affairs 
staff of the side of things where it belongs, and there are two 
of us on staff, and I am the one who handles the social media 
things. In fact, actually tomorrow we are training additional 
staff to be able to make sure that it is timely and it is 
congruent and that we are not just involved in social media 
when I am awake. [Laughter.]
    We are trying to make sure it follows the timeframe, and we 
are actually doing some of that training tomorrow. So we do 
have someone that does take care of that stuff, but it is 
important for it to be done on all aspects and all levels. In 
the State's Emergency Operations Center, I will sit in and I 
will monitor things as they come in, and then I will go out and 
directly talk to the people that are positioned in the EOC that 
deal with the counties on a first-name basis to where, if I see 
something is coming through for Prairie County or I am getting 
reports that roads are flooded and they are concerned about an 
evacuation, I will go to that event manager that is in the EOC 
that is going to be discussing things with the Prairie County 
emergency manager to make sure, OK, is this true, is this going 
to happen? Because like we said before, the emergency managers 
are so consumed with their life-saving responsibilities, which 
is where they need to be, but they do not necessarily have the 
time to come back to the State and say, OK, this is going on 
now, and this is going on now, and this is going on now. So to 
be able to have that additional side where we see what the 
citizens are saying or maybe what the citizens are receiving, 
we can say, OK, they are actively getting the message, and they 
are getting the message effectively. OK, this area does not 
seem to be getting the message that the county wants to 
display, so we need to figure out how else we can best get this 
information to that local community.
    Ms. DeFrancis. We saw that a lot in Alabama, sir, where 
people would say, ``I am in this particular area''--I think it 
was Hackleburg--and ``We do not have any food, we do not have 
any water.'' Well, they did. They just did not know where it 
was. So social media allowed us to put out to them. ``Well, no, 
go to the corner of X and Y and that is where you will find 
it.''
    Senator Pryor. It seems to me that also something we have 
not talked a lot about today is the local media, especially the 
local TV stations in our State, and probably the newspapers and 
radio as well. But the local TV, because we have had such bad 
storms, say they pretty much would just discontinue their 
normal programming just do weather all the time as these 
terrible storms are rolling through. But it seemed like they 
were getting a lot of social media information as they were 
covering this.
    Ms. Preslar. Absolutely.
    Senator Pryor. I think that helps bring awareness to some 
of this as well.
    Ms. Preslar. Like I said before, we use it as a tool not 
only to get information out to our public, to the citizens of 
Arkansas, but also to get information out to that media 
standpoint. On a public affairs side of things, especially in a 
disaster, by the time that you put out that initial press 
release, it is already old information. It is already delayed, 
and you have already got the new information that came in while 
you were going through the sector to get the original one 
approved.
    The way the media puts the expectations of all 
responsibilities in getting information out, social media 
allows us to put out a simple statement within roughly 15 
minutes of something happening. Even if that is simply stating, 
the Arkansas Department of Emergency Management and the State 
of Arkansas has activated its State Emergency Operations 
Center; we are monitoring what is going on; as we get 
information, we will give it to you. It lets citizens know and 
taxpayers know, OK, the State is not doing nothing, they are 
doing something, and we know that now. Whereas, before, they 
had to wait an hour or 2 hours to get that potential 
information. And even though the message does not really 
change, it justifies and I think it validates the fact that 
they know that people are doing something about what is going 
on .
    Ms. DeFrancis. We actually have observed that if something 
is on Twitter or trending on Twitter for about 24 to 48 hours, 
the next jump it will make is to CNN. So it is definitely 
happening, both mediums.
    Senator Pryor. Right. Let me ask a Federal, State, local 
government question, and that is on budget. Does social media 
cost money? Is this adding to your overhead?
    Ms. Preslar. Not at this time. But at the same time, in me 
saying that, we are very limited in what we actually do at the 
moment. It could justifiably cost money. When you talk about 
the opportunities that there are out there for, the mapping 
purposes--and mapping is excellent, especially when we were 
just so recently talking about a potential New Madrid 
earthquake. An earthquake of that level, of that intensity that 
could happen, being able to map things like that through social 
media would provide instant information and a source of 
information--roads, bridges, gas lines, fires, things of that 
nature--where it might--we are discussing still how are we 
actually going to get into these affected areas. But if people 
are able to have that capability inside, that would affect it.
    Obviously a lot of these things can cost money. Actually, 
analyzing what is coming in and using analytics to determine, 
OK, which of your messages are being effective, which of your 
messages are not being effective, and how do you need to rework 
the ones that are, are not being out to the audiences that you 
need. It can cost money. At this time, we have not spent a dime 
on it, but we have always got places that we can go to make it 
improve where we currently stand. But at the same time, without 
spending a dime, I think that we have very effectively used 
what we have been able to take care of.
    Senator Pryor. Right. Ms. DeFrancis, let me ask you--I am 
going to put up Slide 3 here, which is a pie chart,\1\ and it 
is about your survey. I would like to know a little bit more 
about the survey. As I understand it, you asked 1,000 people 
around the country. How did this work?
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Pryor appears in the appendix 
on page 94.
---------------------------------------------------------------------------
    Ms. DeFrancis. Yes, as I told you, during Haiti this was 
the first time we were sort of stunned by the fact that we were 
getting tweets from people trapped under collapsed buildings, 
and we had no way to answer them. So we decided we wanted to 
convene a summit on all of this, which we did last August. But 
in advance of the summit, we wanted to be informed as to how 
much the public really is using social media, and so that was 
the genesis of the survey. We surveyed about 1,058 Web users, 
so these are people who are already pretty well on the Web. But 
I think, like you said, we are seeing a huge--we would love to 
do the survey again each year and see where this is going, 
because we expect that it is growing and that more and more 
people are turning to it.
    We are also seeing demographically, obviously, we are 
seeing younger people using it more. But as they get older, 
then it will become more the way that people operate.
    So it was very useful in giving us a baseline, if you will, 
for how social media is becoming such an important player in 
the disaster space.
    Senator Pryor. Good. That is helpful.
    I actually do have a lot more questions, but in the 
interest of time, I think what I will do is submit those for 
the record. But I would like to finish with one just general 
question, which kind of goes back to the mission of this 
Subcommittee, and that is, I would like to get your thoughts on 
what, if anything, the Federal Government can do to help make 
the use of social media more effective, more available, more 
accurate, just a better tool for all of us to use before, 
during, and after these events. And your answer could be the 
government needs to just stay out of the way and let this just 
happen. If that is the answer, then that is a fine answer. But 
I am curious about your thoughts on what, if anything, the 
government can do or should do better.
    Ms. Blanchard, do you want to start?
    Ms. Blanchard. Sure. I actually think that government can 
do a lot, and I think that the private sector has definitely a 
huge role to play, but I think government always takes a really 
great leadership position. The government has different types 
of mechanisms such as advisory councils. FEMA has a national 
advisory council. It would be really great to see a technology 
committee on that. In addition, to inventory the resources that 
could be brought to bear, to support local and State 
authorities. For example, being able to provide imagery, aerial 
and satellite imagery, during disasters so you can do remote 
disaster assessments, and you can actually harness technology 
volunteers to be able to do that. So just being able to 
inventory a lot of those assets.
    The other thing is that the Federal Government does data 
really well, NASA and NOAA, the Weather Service, I mean, there 
are some really great agencies that work with data all day 
long. In a way, being able to share their lessons learned just 
as it is applied to emergency management I think would be 
really helpful.
    Again, data standards is always something I know that FEMA 
is working on. A couple of crisis data standards, that would be 
helpful.
    Guidance, I think it would be also helpful, and then, of 
course, looking at the grants, because, we definitely want to 
build capacity so you do not have kind of a--it is great that 
you have one super star person, but you really need--in a way, 
it is not the technology tool. It is the data behind it, and it 
is the people that are behind, being able to coordinate that 
information across not only public affairs but also in an 
operational sense.
    Senator Pryor. Ms. Brown.
    Ms. Brown. Thanks for the question. I will keep it simple, 
which is to say I think that if the Federal Government were to 
encourage all of its agencies and bodies to use tools that are 
simple and standard and open, that would really be helpful in 
all the ways that it can do that.
    For example, NOAA as well as USGS have been using in their 
alerting mechanisms the Common Alerting Protocol and that is 
terrific. And if everyone used the same protocol as per our 
earlier discussion, then our ability to be helpful to the 
government on aggregating for alert purposes would be immensely 
enhanced. So that is one example, but there are many. And 
simply encouraging that behavior in all the ways that it can 
would be most useful.
    Thanks.
    Senator Pryor. Ms. DeFrancis.
    Ms. DeFrancis. Thank you, Mr. Chairman. We struggled with 
social media at the Red Cross when we first broached it because 
we did not know how we could control it. I guess in a way it is 
a medium that you cannot easily control. As we discussed here 
today, it is very organic. It is people/citizen input coming 
in. So I am not sure that we would see government stepping in 
to set standards or come up with hashtags or things like that, 
because it seems to be a much more fluid type of medium.
    I do think that by drawing attention to the issues here, I 
do think there will be resource issues, particularly, as Renee 
was talking about, with local and State governments who are 
trying to staff emergency operations centers and have the 
technology and have people trained. There may be issues there 
of how can they afford that, and certainly we have already 
discussed that with the new Next Generation 911 there are 
issues there, too, because even if the FCC were to say here are 
the rules, you still have to resource local and State 
governments that have their own 911 systems. So there may be a 
role for grants as well in this area.
    But I think what you have done today by convening the 
various organizations and groups and drawing attention to this 
problem and this opportunity is really important.
    Senator Pryor. Thank you. Ms. Preslar.
    Ms. Preslar. I have said it several times already about the 
importance, and I cannot stress it enough we would like the 
Federal Government to work with these private companies on how 
social media platforms can be created to allow the responders 
to utilize it in an operations standpoint, and then from that 
have toolkits that those local emergency managers would be able 
to use fairly easily, and then the guidelines--because it 
always gets back to guidelines and regulations, but allow those 
to be flexible enough to allow the new technology to work 
instead of having to continuously go back and edit legislation 
and guidelines as the new technology becomes available, just 
allow it to be able to be flexible enough in the beginning that 
it can go ahead and integrate into the system.
    Senator Pryor. Great. I want to thank you all for being 
here, and like I said, we are going to have some more questions 
for the record. We had a couple members that could not make it 
today.
    We do want to thank you all for being here, and we are 
going to leave the record open for 2 weeks, and again, thank 
you for changing your schedules and making time to be here. And 
if you have ideas as you all continue to do what you do, please 
do not hesitate to let us know because it helps us understand 
what is going on out there, and, maybe we can prod the Federal 
Government to do better in some areas and to allocate more time 
and attention and resources to this.
    So, again, thank you for your time, and I appreciate all 
that you do, not just here today but all that you do around the 
country to help save lives and put this country back together 
after a disaster. Thank you.
    [Whereupon, at 11:47 a.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
